No. 20-1349

In the Supreme Court of the United States
RACHEL THREATT,
Petitioner,
v.
RYAN THOMAS FARRELL, et al., on behalf of himself
and all others similarly situated, et al.,
Respondents.
CERTIFICATE OF SERVICE
I, H. Christopher Bartolomucci, a member of the Bar of this Court, hereby
certify that on April 26, 2021, the Brief for National Retail Federation and Restaurant
Law Center as Amici Curiae in Support of Petitioner in the above-captioned case was
served by electronic filing and email service on the following counsel for Petitioner,
who agreed to electronic service in lieu of service of paper versions of the Brief:
Theodore Harold Frank
HAMILTON LINCOLN LAW INSTITUTE
1629 K Street NW, Suite 300
Washington, DC 20006
tfrank@gmail.com
tfrank@hlli.org
and upon the following counsel for Respondents via email, who agreed to electronic
service in lieu of service of paper versions of the Brief:
Deepak Gupta
GUPTA WESSLER PLLC
1900 L Street NW, Suite 312
Washington, DC 20036
deepak@guptawessler.com

Robert W. Clore
BANDAS LAW FIRM, P.C.
802 N. Carancahua, Suite 1400
Corpus Christi, TX 78401
rclore@bandaslawfirm.com

Matthew W. Close
O’MELVENY & MYERS LLP
400 South Hope Street
Los Angeles, CA 90071
mclose@omm.com

N. Albert Bacharach, Jr.
N. ALBERT BACHARACH, JR., P.A.
4128 NW 13th Street
Gainsville, FL 32609
N.A.Bacharach@att.net

I further certify that all parties required to be served have been served.
/s/H. Christopher Bartolomucci
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Amici Curiae

2

